                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                                PRE-AUDIT SURVEY OF THE
                             MARYLAND GOVERNOR'S OFFICE ON
                               SERVICE AND VOLUNTEERISM

                                   OIG Audit Report Number 0 1- 16
                                        November 28,2000




                                               Prepared by:

                                             KPMG LLP
                                         2001 M Street N.W.
                                        Washington, D.C. 20036

                                 Under CNS OIG MOU # 98-046-5003
                                    With the Department of Labor
                                    DOL Contract # 5-9-G-8-0022
                                         Task # B9GOV203




This report was issued to Corporation management on April 4, 2001, Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than October 1, 2001, and complete its corrective actions by April 4, 2002.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                  Office of Inspector General                                 CORPORATION
                        Corporation for National and Community Service                        FOR NATIONAL

                                 Pre-Audit Survey of the
                   Maryland Governor's Office on Service and Volunteerism
                             OIG Audit Report Number 01-16


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its ArneriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting).
Recommendations for future audit work consider the pre-audit survey results, known audit coverage,
the amount of funding, and other risks. For each survey, we also issue a report to the state commission
and to the Corporation communicating the results and making recommendations for improvement, as
appropriate.
We engaged KPMG LLP toperform thepre-audit survey of the Maryland Governor's OfJice on
Service and Volunteerism (the Commission). Based on the limited procedures performed, KPMG
concluded that the Commission administers an open, competitive process to select national service
subgrantees. Moreover, although during the survey KPMG found conditions that indicated its internal
controls in earlier years were not always adequate, the Commission has, in recent years, established
control policies and procedures to provide reasonable assurance that grant funds are properly
administered and to evaluate and monitor its subgrantees.
Based on their preliminary assessment from this pre-audit survey, KPMG recommends that the
Commissionfurther enhance its site visit monitoring documentation and that OIGperform limited-scope
audit procedures considering thefindings from earlier years.




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
The Commission's and the Corporation's responses are included in this report as Appendices C and D,
respectively. Both responses take issue with the recommendation for further OIG work, however limited
in scope, at the Commission. The Commission's response also provides additional information on the
improvements that it has implemented while the Corporation's response disagrees with
recommendations to improve the Commission's monitoring procedures and documentation. As
described on page 5, KPMG considered the Commission's comments and made certain revisions to the
report.
CNS OIG reviewed the report, with which we concur, and the work papers supporting its conclusions.
We also noted the arguments against further OIG audit work. We believe it is important to clarify that
CNS OIG intends to perform audit work at most, ifnot all, of the state commissions over the next several
years and that the purpose of the pre-audit surveys is to gather information to allow CNS OIG to
determine the timing of and the extent of future audit work. In performing our audit work at the
Commission, we will consider the Commission's corrective actions and the Corporation's oversight
efforts. Further, in accordance with OIG policies and OMB Circular A-133, "Audits of States, Local
Governments, and Non-Profit Organizations," we will consider the results of independent financial and
compliance audits performed at the Commission and its subgrantees in determining the nature and scope
of our future audit work.
                                      Pre-Audit Survey of the
                        Maryland Governor's Office on Service and Volunteerism
                                          Table of Contents



RESULTS IN BRIEF ....................................................................................................................... 1

BACKGROUND ............................................................................................................................. 2

OVERVIEW OF THE MARYLAND GOVERNOR'S OFFICE ON SERVICE AND
VOLUNTEERISM .......................................................................................................................... 3

OBJECTIVES. SCOPE. AND METHODOLOGY ......................................................................... 3

FINDINGS AND RECOMMENDATIONS.................................................................................. 5

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 ......................... A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................ B.1

APPENDIX C. MARYLAND GOVERNOR'S OFFICE ON SERVICE AND
   VOLUNTEERISM RESPONSE ........................................................................................... C.1

APPENDIX D. CORPORATION RESPONSE ........................................................................... D .1
           2001 M Street. N.W
           Washington, D.C. 20036




November 28,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Maryland Governor's
Office on Service and Volunteerism (the Commission). The primary purpose of this survey was
to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours, and program accomplishments reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However. the Commission's control policies and procedures to
    ensure the timeliness, accuracy, and validity of the Commission and subgrantee Financial
    Status Reports during program years 1994- 1995 through 1997- 1998 were inadequate.

    The Commission has developed control policies and procedures to evaluate and monitor
    subgrantees. However, the Commission could not provide documentation to demonstrate the
    procedures performed during site visits for program years prior to 1998-1999.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.




1111         KPMG LLP KPMG LLP a U S m t e d a b t v ;rartnershp s
             a niernbcr of KPMG International a S w s s a.,,ocaton
The Commission forms part of the Executive Department of the State of Maryland, and as such,
is annually subject to an Office of Management and Budget (OMB) Circular A-133 audit
performed by the State Comptroller's Office. The Commission's AmeriCorps grants were
identified as a major program and tested as part of an OMB Circular A-133 audit perfonned by
the State Comptroller's Office for the State's fiscal year ended June 30, 1999 (the most recent
report available). The auditor's report included an immaterial instance of noncompliance related
to the AmeriCorps program which indicated Financial Status Reports, Federal Cash Transaction
Reports and enrollment and end of term reports were not submitted on a timely basis. Therefore,
based on our preliminary assessments, and the nature of the findings identified herein, we
recommend the performance of limited audit procedures to address the findings related to grant
administration and subgrantee monitoring.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are implemented to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provides AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited fkom directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Commission

The Maryland Governor's Office on Service and Volunteerism, located in Baltimore, has
received AmeriCorps grant funds from the Corporation for National and Community Service
since program year 1994-1995. The Commission operates as part of the State of Maryland's
Executive Department. The Commission has seventeen employees including an Executive
Director, a Director of Programs, a Director of Volunteerism, a Chief Operating Officer, a Grants
Manager, and various assistants and support staff.

As part of the State, the Commission is annually subject to an OMB Circular A-133 audit
performed by the State Comptroller's Office.

The Commission provided us with the following information for all program years:

                                                                          Number of
                                                                          Subgrantees
                             Total Corporation        Number of         Subject to A-133
        Program Year             Funding              Subgrantees           Audits*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994- 1995 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activ~tyof
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
    the effectiveness of monitoring of its AmeriCorps State subgrantees. including AmeriCorps
    Member activities and service hours, and program accomplishment reportmg.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.
2   -.




    Our survey included the following procedures:

         reviewing applicable laws, regulations, grant provisions, the Corporation's State
         Administrative Standards Tool, and other information to gain an understanding of legal,
         statutory and programmatic requirements;

         reviewing OMB Circular A- 133 reports and current program year grant agreements for the
         Commission:

         obtaining information from Commission management to complete flowcharts documenting
         the hierarchy of AmeriCorps grant funding for program years 1994-1995 through 1999-
         2000; and

         performing procedures to achieve the objectives detailed in Appendix B to assess the
         Commission's internal controls, selection of subgrantees, administration of grant funds, and
         monitoring of subgrantees including internal controls over service hours and performance
         accomplishment reporting.

    As part of the procedures performed, we documented and tested internal controls in place at the
    Commission using inquiries, observations, and examination of a limited sample of source
    documents. Finally, we summarized the results of our work to develop the findings and
    recommendations presented in this report. We discussed all findings with the Commission
    management during an exit conference on November 28,2000. Subsequent to that date, we
    communicated with the Commission to clarify and resolve certain matters related to our
    preliminary findings and to obtain additional information to finalize our report.

    Our procedures were performed in accordance with Government Auditing Standards issued by
    the Comptroller General of the United States. We were not engaged to, and did not, perform an
    audit of any financial statements, and the procedures described above were not sufficient to
    express an opinion on the controls at the Commission, or on its compliance with applicable laws,
    regulations, contracts and grants. Accordingly, we do not express an opinion on any such
    financial statements, or on the Commission's controls or compliance. Had we performed
    additional procedures, other matters might have come to our attention that would have been
    reported to you.

    We provided a draft of this report to the Commission and the Corporation. The Commission's
    and the Corporation's responses to our findings and recommendations are included as Appendix
    C and D respectively. We have changed the title of and added clarifying language to the finding
    "Documentation of Site Visit Procedures" on page 6, and revised our recommendation based on
    the Commission's response and information provided during our pre-audit survey. No additional
    changes were made to the report.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and uses a standard form to evaluate each applicant. We identified no
significant areas for improvement within this process as a result of the limited procedures
performed.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.400 (a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to manage cash draw downs and disbursements to subgrantees, made
through the Executive Department which has served as the Commission's fiscal agent since
1994. The Commission's personnel have adequate skills and experience to manage and
administer Corporation grant funds. However, we identified the following area for improvement
within the administering process.

        Procedures and Controls over Timeliness, Accuracy and Validity of Financial Status
        Reports (FSRs;)

Due to a lack of documentation, we were unable to determine whether the procedures followed
by the Commission prior to program year 1998- 1999 included a process to ensure timely
submission of subgrantee FSRs. In several instances during this time period, subgrantees' FSRs
were submitted late. Additionally, due to lack of documentation, we were unable to determine
whether procedures existed to review the accuracy of subgrantee FSRs, or whether matching
amounts were reviewed as part of procedures performed during FSR review or during site vis~ts.

The AmeriCorps provisions 16(a) prescribe that Grantees such as the Commission should set
subgrantee reporting requirements consistent with their need for timely and accurate reports. 45
CFR Section 2543.21(a) prescribes standards for financial management systems of grant
recipients. Federal grant recipients financial management systems are requ~redto provide
accurate, current, and complete disclosure of the financial results of each federally sponsored
project or program. Financial management systems are also required to provide for records that
identify the source and application of funds for federally sponsored activities. However, no
recommendation is considered necessary at this time because the Commission implemented
procedures to address these issues in program year 1998-1999.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. The Commission has established controls to evaluate and monitor subgrantees, which
include reviewing program and financial reports and scheduling site visits for each subgrantee
during the grant period. The Commission personnel use a standard site visit report form to
document results of each visit, and the Commission notifies the subgrantees of the results of
these site visits, including strengths, weaknesses, concerns, recommendations, and any necessary
follow-up requirements.

In addition, the Commission evaluates program accomplishments reported by the subgrantees.
The Commission uses a standard form to compile program objectives which were originally
stated in the grant application. By establishing the objectives in this format and sharing it with
the subgrantees at the beginning of the program year, it is clear how the program will be
evaluated and what types of documentation must be maintained. The Commission requires that
the programs address their accomplishments towards meeting the stated objectives on a quarterly
basis, citing both numerical and other informational data. However, we identified the following
area for improvement related to the evaluation and monitoring of subgrantees.

        Documentation of Site Visit Procedures

Due to lack of documentation of procedures conducted during site visits prior to program year
1998-1999, we were unable to determine whether the Commission reviewedJevaluated:
(i) subgrantee accounting systems, records and support for grant expenditures; and (ii)
Americorps Member timesheets, eligibility, living allowances, service hours, and members'
awareness of prohibited activities. The Commission's standard site visit monitoring tool
implemented for use in program year 1998- 1999 provides information as to the procedures
conducted during site visits. However, we noted that, although the site monitoring tool is
maintained, it does not identify what documents the reviewer tested. Therefore, subsequent
reviewers would be unable to examine the same documentation if a question arose about the
results of the site visit.

        Recommendation

We recommend the Commission require the reviewer to document the specific items examined,
where applicable, during site visits. Although not specifically required by a law or regulation,
including the items noted above in a standard monitoring tool enhances the Commission's ability
to consistently evaluate key compliance and programmatic requirements, validate the results of
its reviews. and ensure the completion of all monitoring steps at each subgrantee visited.
mB
 !
Other Observations

        Use of Web Based Reporting System

We determined that the Commission has not fully implemented the Web Based Reporting
System (WBRS) due to various technical problems. Discussions held with the Commission
personnel indicate that they are using WBRS when possible, but continue to maintain prior
processes until WBRS is fully functional.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Maryland Governor's Office on Service and Volunteerism, and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.
                                          Commission Funding                           Appendix A

          The table below and the flowcharts on the following pages depict the Commission's funding
          over the past six program years.


Funding Source
and Type

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds

Make a Difference Day

Community Based Learn
and Serve

Disabilities - Subtitle H

America Reads

Promise Fellow Funds


PDAT Funds

Administrative Funds

State Matching Funds
                                                                                            Appendix A


                                    Commission Funding

               Corporation for National and Community Service

Funding to the Maryland Governor's Office on Service and Volunteerism
                            (1994-1995)




Americorps                  Americorps                   Learn and                 Administration
 Formula                    Competitive                    Serve                      Funds
  Funds                       Funds                       Funds                      $209,802
 $973,446                   $2,650,265                    $90,000

  Match                       Match                       Match                       Match
   $0                          $0                          $0                        $108,052




    v                           v                         v                             v
             Total CNS Funds Retained by the Commission $209,802

                      Total Commission Matching Funds $108,052

              Total CNS Funds Awarded to Subgrantees $3,713,711



                                                                        v
             Americorps                   Americorps                 Learn and
              Formula                     Competitive                  Serve
               Funds                        Funds                     $90,000
              $973,446                    $2,650,265

               Match                        Match                      Match
              $543,890                    $1,413,577                  $23,277

              # of Subs:                   # of Subs:                # of Subs:
                  3                            3                         5

              # of Sites:                  # of Sites:               # of Sites:
                  43                           45                        5
                                                                                                    Appendix A

                                              Commission Funding


                      Corporation for National and Community Service

          Funding to the Maryland Governor's on Service and Volunteerism
                                   (1995-1996)




                                          -




                                                I
Americorps                  Americorps             Leam and
 Formula                    Competitive              Serve          Funds                      Funds
  Funds                       Funds                 Funds           $90,000                   $514,651
 $924,030                   $4,943,289             $173,000

  Match                       Match                 Match            Match                     Match
   $0                          $0                    $0                                       $109,658




                Total CNS Funds Retained by the Commission $604'65 1

                            Total Commission Matching Funds $109,658

                   Total CNS Funds Awarded to Subgrantees $6,040,3 19




                                                  i
             Americorps                             Americorps                 Leam and
              Formula                               Competitive                  Serve
               Funds                                  Funds                    $173,000
              $924,030                              $4,943,289

               Match                                  Match                     Match
              $335,511                              $3,171,698                $105,965.30

              # of Subs:                             # of Subs:                # o f Subs:
                  3                                       6                         30

              # of Sites:                            # o f Sites:              # o f Sites:
                  50                                     lo6                        30
                                                                            Appendix A

                           Commission Funding

               Corporation for National and Community Service

    Funding to the Maryland Governor's Office on Service and Volunteerism
                                (1996- 1997)




Americorps                                Disabilities              Administration
 Formula                                  Subtitle H                   Funds
  Funds                                    $165,000                   $297,133
$1,188,491

  Match                                                                 Match
   $0                                       Match                      $87,929
                                             $0
                                                                                Appendix A


                                 Commission Funding

                  Corporation for National and Community Service

     Funding to the Maryland Governor's Office on Service and Volunteerism
                                 (1997-1998)




Americorps    Americorps      Leam and      Disabilities    PDAT       Administration
 Formula      Competitive       Serve       Subtitle H      Funds         Funds
  Funds         Funds          Funds         $264,967      $2 13,692     $199,247
 $1,256,112   $4,809,039      $181,500

  Match         Match           Match         Match         Match         Match
   $0            $0              $0            $0            $0          $396,932




              Total CNS Funds Retained by the Commission $412,939

                        Total Commission Matching Funds $396,932

                Total CNS Funds Awarded to Subgrantees $6,5 11,618
                                                                                               Appendix A

                                               Commission Funding
                                          --           -      -




                             Corporation for National and Community Service

             Funding to the Maryland Governor's Office on Service and Volunteerism
                                         (1998-1999)




Americorps                                     Disabilities   America    Promise     PDAT      Administration
 Formula     Competitive                       Subtitle H      Reads      Fellow     Funds        Funds
  Funds                                         $333,626      $386,128     Funds    $240,000     $250,247
 $893,146    $4,399,080       $1 12,500                                  $185,000

  Match        Match           Match             Match         Match      Match      Match        Match
   $0                                             $0              $0                  $0         $426,472




T
                          Total CNS Funds Retained by the Commission $490,247

                               Total Commission Matching Funds $426,472

                           Total CNS Funds Awarded to Sub-grantees $6,309,480
                                                                                            Appendix A


                                  Commission Funding

                        Corporation for National and Community Service

             Funding to the Maryland Governor's Office on Service and Volunteerism
                                         (1999-2000)




Americorps                                  Make a      America    Promise
 Formula                                   Difference    Reads      Fellow        Funds
  Funds                                       Day       $769,238    Funds     $   194,400
$531,579                                     $2,000                $190,100

  Match                                      Match       Match      Match         Match
   $0                                         $0          $0         $0




T                                                                  T
                    Total CNS Funds Retained by the Commission $487,772

                          Total Commission Matching Funds $174,473

                     Total CNS Funds Awarded to Subgrantees $6,120,369
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management
personnel and documented procedures performed by the Commission during the pre-award
financial and programmatic risk assessment of potential subgrantees. We also reviewed
documentation to determine if conflict of interest forms for each subgrantee applicant tested
were signed by selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees,
    including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
STATE OF MARYLAND                                                                        Appendix C
EXECUTIVE DEPARTMENT
PARRIS    N. GLENDENING                                                                          KATHLEEN K E N N E D Y TOWNSEND
GOVERNOR                                                                                                  LIEUTENANT GOVERNOR
GOVERNOR'S OFFICE O N SERVICE AND VOLUNTEERISM                                                               PAT M. KIRK, CHAIR
STATE O F F I C E B U I L D I N G . 8'" FLOOR
                                                                                                      LARRY WALTON, VICE CHAIR
3 0 0 WEST PRESTON STREET. R O O M 8 0 8
B A L T I M O R E , MARYLAND 2 1 2 0 1
MAIN N U M B E R                          410.767- 1218
INFORMATION                               410-787-6338
FAX                                       470-333-5957
TDD                                       410-333-5181
T O L L FREE                              1.800.321-VOLS
w w w . g o s v . s t a t e .m d . u s
LYNN A. BOPP. Exscutlvs D i r e c t o r




                    March 19, 200 1

                    Ms. Luise S Jordan, Inspector General
                    Corporation for National Service
                    Ofice of Inspector General
                    1201 New York Avenue, NW
                    Washington, DC 2 0 5 2

                     Dear Ms. Jordan.

                     The Maryland Governor's Commission on Service and Volunteerism (MGOSV) has
                     received and reviewed the findings and recommendations of the draft report on the OIG's
                     Pre-Audit Survey of the Maryland Commission. Our responses are as follows:

                     Results in Brief:

                     "Ihe ('ontnti.s.sio~r'sAmeriCorps grnt~t.swere ide~trfiedas a major program and tested as
                    part of at1 OMH ('ircirlar A-133 audit performed by the State Comptroller's Office for the
                    State 'sfiscal year etlded .Jutre 30, 1999. The atrditor 'sreport itlclirded an immaterial
                    ~ t ~ s t a , ~ofc r~orrconplia~rce
                                       e             related to the AmeriCorps program which indicated Fitlar~cial
                    Slatlrs Reports, /*idera/('ash Trat~sactior~     Reports and et~rollmer~t    and end of term
                    /.t.yoi.i.s wrrr trot srrhmirted on a tinrely basis. Therefore, based oil otrr yrelimrnary
                    assessments, m d the nattlre of thefitidi~~gs     idetltrfled h e r e i ~we
                                                                                             , recommefld the
                    performat~ceof limited atrdit yrocedrrres to address theJir~ditlgsrelated to gratlt
                    crdrnitristratior~a d sirhgra~~ter   mot~itorir~g
                                                                "




                     MGOSV Response.

                     We respecthlly disagree with the recommended limited scope audit related to grant
                     administration and subgrantee monitoring First, we would like to note that the
                     noncompliance with timely submission of Financial Status Reports and enrollment and
                     end of term reports was related to a non-compliance issue by the MGOSV's sub-ganpees
                     The MGOSV was not cited for submitting late federal reports Furthermore, since the
                     1998- 1999 program year, we have implemented and thoroughly documented strong
financial and programmatic oversight and monitoring procedures. Finally, our federal
pre-audit survey found these issues of non-compliance related to grant years prior to the
 1998 grant year, and thus noted that the MGOSV has remedied these findings in its
subsequent grant years.

Finding Number I




Recommendation Number I :

 " N o recontmer~dutioriis cor~sidercdrlecessary at this time because the Coniniissiorl
in~plemer~ led pr.ocrd~rre.sto a~l'hessthese isstres it1 propam pear 1998- 1 999. "

Finding Number 2

E~~al~r~rtiorr
         C U I h4011itor111g
               ~          of'S~ih-patttee~..
                                         Adequacy of Site b'isit Proced~rres

Recommendation Number 2:




       A d d p ~ ~ ~ c e d rto
                            ~ rthe
                                e s crirrcrlt site visit ntorritoriug tool to irutrlrct Program
       Mat~agcr:~    to pet;form /asks to detemirle: (I) how Member restricted activities are
       morri/or.cd: (11)whether Member tiniesheets or rosters exist atld how time charged
       i.s ~ w ~ f i c curd
                       d : (I;;)wheiher livitrg al1owance.s are beir~gpaid accordirig to
       e.stcrhli.shedg~~idelirre.s.

       "ildditrorralll,, irn/rwctors sholrld require the reviewer to doctrnient the specrfrc
       1tent.s examir~ed,where applicable. Althorrgh )lot spec~ficallyrequired by a law or
       rrpulo/iort, ir~cbrdit~g  the /tents rioted above it?a statrdard morlitorirlg tool
       e t ~ J ~ ~ ~/he
                    ~ t cor~gatri:a/ior~'.s
                         e.s             ahrlity to corarstet~llyevaluate key compliar~ceand
       progmt~nttrticreq~~irenterrts.     ~alidcriethe resirlts of its reviews, atld etlstcre the
       completiort of all niot~itorir~g   steps at each strbgrantee visited.
                                                                           "




MGOSV Response:

Since the 1998- 1999 program year, the MGOSV has thoroughly revised the site visit
monitoring tools to specifically monitor Member restricted activities; Member
timesheets, and Member living allowance payments. The MGOSV site visit-monitoring
tool includes all the items recommended and is on file in the MGOSV office.
Other Observations:

Use of Web Based Reportit~g,System: Not firlly rmplemerited due to varioris techtircal
problems.

MGOSV Response:

We would like to clarify this other observation related to the Web Based Reporting
System ( W R S ) . The MGOSV was not required to hlly implement the W R S system
until the 2000-200 1 program year. Currently, the MGOSV is using the WBRS system as
directed by Corporation requirements.

We trust that our responses satis@ the concerns raised in the report. We appreciate the
opportunity to respond to the report. Should you have any questions, or need additional
information, please do not hesitate to contact me at (4 10) 767- 12 16.



                                             Sincerely,


                                             ~ ~ A.n Bopp
                                                       h
                                             Executive Director


cc:     Stacy Bishop, MGOSV Grants Manager
        Keith Hart, MGOSV Director of Programs
        William Varga, Assistant Attorney General
        Robert Platky, Director of Financial Administration
        Pat Kirk, Commission Chair
        Stacie Rivera, Special Assistant to the Lieutenant Governor
        Cheryl Blankenship. CNS Senior Program Oficer
                                                                 Appendix D



                                                               AmeriCorps National Service   C0R P0 RATI0N
Date:          Varch 22. 2001
                                                                                             FOR N A T I O N A L
To:            Luise Jordan. Inspector General,

Thru:          Bill Anderson.

From:          Peter Heinaru.

Subject:       Comments on the OIG Draft Report 0 1 - 15. Pre-Audit S l m q . o f the
               .tlclrylund Golwnor 's 0jJ;ce on Service und Cblunteer~sn7


We have reviewed the draft pre-audit survey of the Maryland Governor's Office on
Service and Volunteerism (the Commission). Based on the results presented in the draft
report we are pleased to note that the Commission:

        +   administers an open. competitive process to select national service
            subgrantees;

        +   has developed adequate control policies and procedures to administer the
            Corporation's grant funds: and

        +   has developed adequate control policies and procedures to evaluate and
            monitor subgrantees.

The report contains two recommendations related to the section titled Evaluating and
Monitoring Subgrantees. The first recommendation is that the Commission "Add
procedures to the current site visit monitoring tool to instruct Program Managers to
perform tasks to determine: (i) how Member restricted activities are monitored; i i i )
whether Member timesheets or rosters exist and how time changed is teritied: and i i l l )
whether living allomances are being paid according to established guidelines." The
Corporation disagrees with this recommendation. Since the 1998- 1999 program. ) ear the
Commission has thoroughly revised its site monitoring tool to specifically monitor
member restricted activities. member timesheets, and to verify that member living
allouances are being paid according to established guidelines. The retised current site
monitoring tool is on tile in the Commission office and is utilized by the Program
Managers. We believe that the Commission's site t isit tool provides adequate coterage
over the Corporation's programs.
                                                                                              1201 hew York Avenue.
The second recommendation is that ". . . instructors should require the revie~terto           Washrigton DC 23525
document the specific items. where applicable. Although not specifically required b!          T e l e ~ h o n e 2 0 2 ~ ~
law or regulation. including the items noted above in a standard monitoring tool enhances
the organization's ability to consistently evaluate key compliance and programmatic
requirements. validate the results of its reviews and ensure the completion of all
monitoring steps at each subgrantee visited." The Corporation disagrees. The
Commission has implemented a risk-based strategy that has been in place since the 1998-
 1999 program year. The Commission methodology adequately documents the results and
resolution of issues identified on site visits and provides a level of okwsight of its
subgrantees based on the level of risk.

In the section titled Other Observations. KPMG states that ". . . the Commission has not
fully implemented the Web Based Reporting System (WBRS) due to Larious technical
problems. Discussions held with the Commission personnel indicate that the). are using
WBRS Lvhen possible, but continue to maintain prior process until WBRS is fully
functional." We wish to point out that at the time the pre-audit survey was performed.
the Commission was not required to have WBRS fully implemented. Since that time the
Commission has fully implemented WBRS.

Finally. the section titled Results in Brief includes a recommendation for a limited scope
audit of the Commission's grant administration and subgrantee monitoring. The
Corporation does not believe such an audit is necessary. Given the generally favorable
results presented in the survey and the absence of other indicators of risk at the
Commission. the Corporation believes that it would be more effective for the
Commission to address these matters through the State Administrative Standards R e \ . i e ~
process.

cc:     Peg Rosenberry
        Monica Holman
        Mike Kenef-ick
